            OFFICE OF
     THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


    DISABLED INDIVIDUALS POTENTIALLY
ELIGIBLE AS AUXILIARY CHILD BENEFICIARIES


        June 2012    A-13-10-10146




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                               SOCIAL SECURITY
MEMORANDUM

Date:      June 12, 2012                                                           Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Disabled Individuals Potentially Eligible as Auxiliary Child Beneficiaries (A-13-10-10146)


           OBJECTIVE
           Our objective was to determine whether Supplemental Security Income (SSI) recipients
           were potentially entitled to Old-Age, Survivors and Disability Insurance (OASDI) benefits
           as disabled child beneficiaries.

           BACKGROUND
           The SSI program provides cash assistance to individuals who have limited income and
           resources and who are age 65 or older, blind, or disabled. 1 The OASDI program
           provides benefits to qualified retired and disabled workers and their dependents as well
           as survivors of insured workers. 2 According to Social Security Administration (SSA)
           policy, an application for benefits under the SSI program is also an application for
           benefits under the OASDI program. 3

           SSI is a program of last resort; therefore, it is important to assess other benefit
           programs for which an individual may be eligible. SSI recipients may also be eligible as
           auxiliary child beneficiaries on a wage earner’s 4 record under the OASDI program. This
           occurs when certain criteria are met, such as being dependent on the parent; being age
           18 or older and disabled before reaching age 22; and having a parent who is entitled to
           Disability or Retirement Insurance benefits or was insured at the time of death.

           To conduct this review, we obtained a data extract of information from SSA’s
           Supplemental Security (SSR) and Master Beneficiary Records (MBR), Modernized
           Enumeration System History, and Master Representative Payee File as of March 2011.
           1
               Social Security Act § 1601, et seq., 42 U.S.C. §1381, et seq. See also 20 C.F.R. § 416.110.
           2
               Social Security Act § 201 et seq., 42 U.S.C. § 401 et seq.
           3
               SSA, POMS, SI 00601.010.D1 (November 29, 2011).
           4
               In this report, the term “parent” is synonymous with wage earner.
Page 2 - The Commissioner


The data extract from 1 random segment of SSA’s records contained 1,760 records. To
these records, we applied additional screening requirements. From this, we identified
675 SSI recipients who were potentially entitled to OASDI as disabled child
beneficiaries but were not receiving those benefits. We randomly selected and
assessed OASDI auxiliary benefit eligibility, and if applicable, payments for 100 of the
675 SSI recipients. Our analysis uses information recorded in SSA’s records at the time
of our review. See Appendix B for a discussion of our scope and methodology and
Appendix C for our sampling methodology and results.

RESULTS OF REVIEW
Although SSA had taken actions to identify and prevent missed entitlements, we
identified SSI recipients who were also eligible for OASDI. Our analysis of 100 SSI
recipients found 95 were eligible for OASDI as auxiliary child beneficiaries. Of these,
we identified 16 SSI recipients who were due OASDI underpayments totaling about
$71,000. We estimate approximately 2,160 SSI recipients were eligible for OASDI and
were due underpayments totaling approximately $9.6 million.

SSI RECIPIENTS ELIGIBLE FOR OASDI BENEFITS

We assessed the SSI recipients’ eligibility for OASDI benefits by examining information
recorded in SSA’s MBR, SSR, Master Earnings File, Representative Payee System,
Numident, and Prisoner Update Processing System. We assessed various eligibility
and non-eligibility factors, including marital status, age, disability, and criminal history
(see Appendix D for a full list of factors). Based on our analysis of 100 SSI recipients’
records, 5 we determined 95 were eligible for OASDI as auxiliary child beneficiaries and
5 were ineligible.

On September 9, 2011, we submitted information pertaining to our sample cases to
SSA for review. We requested the Agency confirm eligibility for OASDI and determine
the amount of underpayment (if applicable) due the SSI recipients. SSA advised us that
it did not plan to respond to our request to review our sample cases. 6

Based on our review of SSA’s MBRs as of January 2012, SSA had determined 7 of the
95 recipients were eligible for OASDI as auxiliary child beneficiaries. Of these seven,
six were in current pay and receiving about $4,000 in monthly OASDI benefits. If the
Agency




5
  In April 2011, we selected a random sample of 50 SSI recipients. In July 2011, we randomly selected
an additional 50 SSI recipients to review—for 100 recipients. To assess OASDI eligibility for the 100 SSI
recipients in our sample, we reviewed information recorded in SSA’s automated systems as of May and
July 2011, respectively.
6
    In February 2012, Agency staff advised us of this decision.
Page 3 - The Commissioner


evaluates the remaining 88 7 recipients we identified, we expect more of the recipients
will be determined eligible and receive OASDI payments as auxiliary child beneficiaries.
Specifically, based on our analysis, 16 of the 88 recipients were due approximately
$71,000 in OASDI underpayments (see Table 1).


                              Table 1: SSI Recipients Due OASDI Payments 8
                                             As of May 2011
      SSI                  Offset          OASDI        Windfall    Net OASDI
    Recipient              Period           Due          Offset 9  Underpayment
         A             1/06 – 5/11               $52,914            $28,881                $24,033
         B             8/98 – 5/11              $110,713            $89,780                $20,933
         C             9/08 – 5/11               $30,227            $22,768                 $7,459
         D             3/10 – 5/11               $11,197             $4,690                 $6,507
         E             6/09 – 5/11               $19,892            $16,728                 $3,164
         F             7/09 – 5/11               $18,081            $15,502                 $2,579
         G             7/02 – 5/11               $52,741            $51,215                 $1,526
         H             4/96 – 5/11               $35,078            $33,995                 $1,083
         I             2/11 – 5/11                $4,366             $3,380                  $986
         J            12/06 – 5/11               $26,361            $25,606                  $755
         K             1/11 – 5/11                $3,928             $3,370                  $558
         L             3/98 – 5/11               $41,384            $40,938                  $446
         M             3/04 – 5/11               $38,689            $38,328                  $361
         N             6/96 – 5/11               $61,552            $61,248                  $304
         O             7/00 – 5/11               $46,370            $46,098                  $272
         P             2/07 – 5/11               $21,812            $21,797                    $15
                   TOTAL                        $575,305           $504,324                $70,981

Based on our analysis of information in SSA’s records for 1 segment of the SSR, we are
90-percent confident the number of eligible SSI recipients ranged from 73 to 153, and
the total amount of underpayments for these individuals ranged from $136,534 to
$821,704. For all 20 segments of the SSR, we estimate approximately 2,160 SSI
recipients were eligible for OASDI as disabled child beneficiaries and were due
underpayments totaling approximately $9.6 million.

7
 Of the 88 recipients, we do not expect 37 SSI recipients are due any OASDI underpayment because the
SSI payments were greater than or equal to the OASDI benefit due. We determined 35 are technical
entitlement OASDI beneficiaries. According to SSA policy, when the family maximum is equal to the
primary insurance amount, any auxiliaries on the record will have a zero monthly benefit amount. This is
considered technical entitlement since the auxiliary is entitled, but no benefits are payable at that time.
8
  We based the values in the table on our understanding of Agency policies and payment calculations.
We asked SSA to confirm that an underpayment was due, but the Agency would not do so. The
estimated underpayments do not consider other overpayments/underpayments that may apply. As such,
these amounts are estimates and are subject to change.
9
  SSA, POMS, SI 02006.001 (November 21, 1996) indicates a windfall offset is the reduction of
retroactive OASDI benefits by the amount of SSI payments that would not have been due had SSA paid
the OASDI income timely.
Page 4 - The Commissioner


Children Named on the Parent’s Record

We asked SSA staff why these types of cases are overlooked. Office of Quality
Performance (OQP) staff informed us that, in some cases, children are named on the
parent’s (numberholder) OASDI record, 10 but field office staff did not file the claim. We
evaluated this issue for our sampled cases. For 66 of the 100 SSI recipients, SSA's
Modernized Claims System (MCS) indicated the parent had a child who was under age
18, a student age 18 or 19, or a child age 18 or older and disabled before age
22. For 53 (80 percent) of the 66 cases, we determined that SSA staff had listed the
SSI recipient in our sample on the OASDI claim as the numberholder’s dependent child.
Despite being identified on the parents’ claim, field office staff had only taken an
auxiliary OASDI claim application for 12 (23 percent) of the 53 recipients.

In May 2010, OQP issued a report 11 that discussed incorrect filing dates and improper
close-out procedures that resulted in open applications. OQP determined that the
majority of protective filing 12 errors were due to the Agency’s failure to take auxiliary
applications that were protected on the numberholder's initial applications. OQP further
reported that often, these errors occurred in disability application appeals cases
because of deferred development. When SSA finally approved an award, staff could
overlook auxiliary beneficiary applications when paying the numberholder after the
lengthy appeal process. To avoid these errors, OQP suggested the adjudicator review
prior claims and queries for protected auxiliaries and review auxiliary information on the
application. Finally, OQP reported the protective filing errors occurred about
30,000 times a year and accounted for approximately $144 million in errors each year.

OQP explained it was conducting a review to identify individuals who were eligible as
auxiliary beneficiaries for OASDI benefits. Similar to our review, OQP's probe sample
identified cases in which children were named on the parent’s application, but the
Agency failed to file the claim. Further, OQP staff reported that the probe sample
revealed instances where a child’s name had been deleted from the parent’s record.
This could significantly affect the protective filing for the child.




10
  Naming a child on the parent’s OASDI application establishes a protective filing for the child. See also
note 11.
11
     SSA OQP, Analysis of Protective Filings and Open Applications in OQP Reviews, May 2010.
12
  Protective filing refers to the date that a claimant or applicant first contacts SSA (either orally or in
writing) expressing an intent to file an application for benefits.
Page 5 - The Commissioner


SSA’S EFFORTS TO IDENTIFY AND PREVENT MISSED ENTITLEMENTS

Each year, OQP produces analytical reports that provide information on the accuracy of
Agency workloads and an assessment of the most prevalent error-causing issues in
those workloads. According to OQP’s annual report, 13 its reviews consistently identified
missed entitlements 14 as one of the major areas of concern for the Agency. To address
this issue, the Agency had taken various actions to identify and prevent missed
entitlements, such as issuing reminders and providing refresher training to staff.

Reminders to SSA Staff

In April 2010, SSA issued an Administrative Message (AM) 15 to provide information
on identifying potential auxiliary claimants and prevent missed entitlement. Specifically,
it included (1) reminders for claims representatives when addressing entitlement issues,
(2) scripts containing questions the interviewer can ask the claimant to assist in locating
potential auxiliaries, and (3) steps to download and run a macro 16 that will assist the
adjudicator in gathering sufficient information to contact all current and former spouses
and children on the application.

In August 2011, the Agency issued another AM 17 to remind staff about properly closing
protected auxiliaries named on OASDI applications. When a numberholder files for
OASDI benefits and names a child on the application, the application serves as a
protective filing. Staff is to take an application or issue a 6-month close-out notice to
properly close an OASDI protective writing. 18 If this is not done, the protective filing will
remain open indefinitely. 19 If the named auxiliary does not wish to file or cannot be
located, staff should close the protective writing. If the numberholder does not
specifically name a child, but the application includes enough information to identify the
child, staff should find intent to file for the child. 20



13
     SSA OQP, Office of Quality Performance Annual Report Fiscal Year 2011, p. 2.
14
   Missed entitlement (also referred to as potential entitlement) refers to workloads where individuals
either are entitled to a benefit but are not receiving it, or are being paid at an incorrect rate.
15
  SSA, AM 10002, Tips and Tools for Locating Potential Auxiliaries and Preventing Missed Entitlement
(April 16, 2010).
16
     A macro is a single computer instruction that stands for a sequence of operations.
17
  SSA, AM 11102, Reminder-Properly Closing out Protected Auxiliaries Named on Title II Applications
and Setting a Diary in MCS (August 24, 2011).
18
   A written statement that protects the claimant’s filing date. The statement must show the writer’s intent
to claim benefits for him/herself or on behalf of another.
19
     SSA, AM 11102, supra.
20
     Id.
Page 6 - The Commissioner


Training

On January 12, 2010, SSA aired an Interactive Video Teletraining (IVT) broadcast 21 to
provide refresher training on policies and procedures to avoid missed entitlements. The
targeted audience was field office, regional office, processing center, and teleservice
center employees. The IVT broadcast noted that recent Agency studies showed missed
entitlements were one of the more common errors in the initial claims process.
The claims representative is responsible for identifying all possible entitlements so the
claimant can make an informed filing decision. Although SSA policy requires it, the
identification, documentation, and processing of other entitlements are often missed. 22
This IVT broadcast addressed the most common missed entitlement issues, including
documentation and computation errors. During the broadcast, SSA also introduced
tools designed to help interviewers identify potential entitlements.

In addition to the IVT broadcast, SSA released a video on demand (VOD)
on November 30, 2011 23 regarding childhood disability benefits (CDB). This VOD is
one of several Disability Training Initiative VODs created as refresher training to prevent
instances of missed entitlement. The training covers basic requirements for CDB. It
also covers reentitlement, dual entitlement, and some general reminders.

CONCLUSION AND RECOMMENDATIONS
We identified SSI recipients who were eligible for OASDI benefits as disabled child
beneficiaries. Based on our analysis of information in SSA’s information systems, we
estimate approximately 2,160 SSI recipients are eligible for OASDI benefits and are due
underpayments totaling approximately $9.6 million. Our screening criteria resulted in
95 percent of the recipients in our sample identified as eligible for OASDI as auxiliary
child beneficiaries. Therefore, SSA’s use of our criteria could assist it in identifying
individuals eligible for OASDI entitlement.




21
     SSA Office of Learning, Missed Entitlements - Tips and Tools (27 minutes), January 12, 2010.
22
     Id.
23
     SSA Office of Learning, Childhood Disability Benefits (14 minutes), November 30, 2011.
Page 7 - The Commissioner


In February 2012, we identified 14,434 SSI recipients—from all 20 segments of SSA’s
records—who were potentially entitled disabled child beneficiaries. We provided this
information to the Agency for corrective action. Therefore, we recommend SSA:

1. Develop and implement a cost-effective strategy to assess the 14,434 recipients we
   identified to correctly pay those recipients eligible for OASDI as auxiliary child
   beneficiaries and pay the OASDI underpayments due the recipients, as appropriate.

2. Consider establishing an automated periodic review of SSI disabled child recipients
   for potential entitlement to OASDI auxiliary child benefits.

AGENCY COMMENTS
SSA agreed with our recommendations. See Appendix E for the Agency’s comments.




                                        Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sampling Methodology and Results
APPENDIX D – Analysis of Sample Cases
APPENDIX E – Agency Comments
APPENDIX F – OIG Contacts and Staff Acknowledgment
                                                       Appendix A

Acronyms
AM       Administrative Message
CDB      Childhood Disability Benefits
C.F.R.   Code of Federal Regulations
IVT      Interactive Video Teletraining
MBR      Master Beneficiary Record
MCS      Modernized Claims System
OASDI    Old-Age, Survivors and Disability Insurance
OIG      Office of the Inspector General
OQP      Office of Quality Performance
POMS     Program Operations Manual System
SSA      Social Security Administration
SSI      Supplemental Security Income
SSR      Supplemental Security Record
U.S.C.   United States Code
VOD      Video on Demand
                                                                                   Appendix B

Scope and Methodology
To accomplish our objective, we:

• Obtained and reviewed applicable Federal laws and regulations, pertinent sections of
  the Social Security Administration’s (SSA) Program Operations Manual System, and
  other criteria relevant to the Supplemental Security Income (SSI) and Old-Age,
  Survivors and Disability Insurance (OASDI) programs.

• Reviewed prior relevant Office of the Inspector General reports.

• Interviewed personnel from SSA’s Offices of Quality Performance and Operations.

• Obtained and analyzed data extracted from SSA’s Supplemental Security (SSR)
  and Master Beneficiary Records (MBR), Modernized Enumeration System History,
  and Master Representative Payee File as of March 2011.

• Selected a random sample of 100 SSI recipients. Examined information in SSA’s
  SSR, MBR, Numident, Representative Payee System, Prisoner Update Processing
  System, and Master Earnings File to determine eligibility for OASDI benefits and the
  applicable OASDI underpayments, if any, owed to the SSI recipients. 1

We performed our review at SSA’s Headquarters in Baltimore, Maryland, from
May 2011 through January 2012. We found the data used for this audit to be
sufficiently reliable to meet our audit objective. The primary entity audited was the
Office of the Deputy Commissioner for Operations.

We conducted our review in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective.




1
  In April 2011, we selected a random sample of 50 SSI recipients. In July 2011, we randomly selected
an additional 50 SSI recipients to review—for 100 recipients. To assess OASDI eligibility for the 100 SSI
recipients in our sample, we reviewed information recorded in SSA’s automated systems as of May 2011
and July 2011, respectively.
                                                                      Appendix C

Sampling Methodology and Results
We obtained and analyzed data extracted from the Social Security Administration’s
(SSA) Supplemental Security and Master Beneficiary Records (MBR), Modernized
Enumeration System History, and Master Representative Payee File as of March 2011.

The extracts identified 1,760 records from 1 random segment that met the following
criteria.

•   The Supplemental Security Income (SSI) recipient was in current payment status.
•   The SSI recipient had a date of disability onset established before age 22.
•   There was an indication the SSI recipient never received Old-Age, Survivors and
    Disability Insurance (OASDI) benefits.
•   At least one of the SSI recipient's parents (name and Social Security number) was
    identified from the Modernized Enumeration System History or Master
    Representative Payee File (natural or adoptive father, natural or adoptive mother,
    stepfather, or stepmother).
•   The parent met the following criteria:
       o   was a primary beneficiary/numberholder and
       o   had a ledger account file other than N (disallowed claim) or ND (denied
           claim).

We refined the extracts by applying the following additional screening requirements.

•   SSI recipient was age 18 or older.
•   SSI recipient was not married.
•   The parent was in current payment status or was deceased.
•   SSI recipient did not have an MBR.

After applying the additional screening requirements, we identified 675 SSI recipients in
one segment who were potentially entitled to OASDI benefits as disabled child
beneficiaries. We selected a random sample of 100 SSI recipients to determine
whether they were eligible for OASDI benefits and were due OASDI underpayments.
Projecting our sample results to all 20 segments, we estimate approximately
2,160 recipients are eligible for OASDI and are due underpayments totaling
approximately $9.6 million.




                                             C-1
             Table C-1: Population and Sample Size                                Number of SSI
                                                                                   Recipients
Total Sample Frame (1 Segment)                                                        675
Sample Size                                                                           100
Number of Eligible SSI Recipients in Sample                                           95 1

  Table C-2: Projection of SSI Recipients
Who Are Eligible for OASDI and a Payment Number of SSI                              OASDI
                   is Due                         Recipients                     Underpayments
Sample Results                                       16                             $70,981
Estimate to the Sample Frame (Point                  108                           $479,119
Estimate)
Lower Limit                                          73                              $136,534
Upper Limit                                          153                             $821,704
Estimate to the Population (20 Segments)            2,160                           $9,582,380
Note: All projections are at the 90-percent confidence level.




1
 Based on our analysis of SSA’s records, the remaining five SSI recipients were ineligible for OASDI as
an auxiliary child beneficiary.


                                                  C-2
                                                                                       Appendix D

Analysis of Sample Cases
To evaluate the Supplemental Security Income (SSI) recipients’ eligibility for Old-Age,
Survivors and Disability Insurance (OASDI) benefits as a disabled child beneficiary, we
reviewed various entitlement and non-entitlement factors, as well as issues that would
limit the amount of benefits that would be payable. 1 Specifically, we determined
whether
• the SSI recipient was in current payment status;
• the SSI recipient was convicted of killing the numberholder (parent);
• the SSI recipient was ever entitled to, and received, OASDI benefits;
• the SSI recipient was dependent on the parent;
• alcoholism or drug addiction was a contributing factor to the SSI recipient’s disability;
• the SSI recipient was imprisoned in the United States after conviction for a felony;
• the SSI recipient had an outstanding warrant for a crime, probation violation, or
    parole violation;
• the SSI recipient was married;
• the SSI recipient performed substantial work;
• the SSI recipient was an alien living outside the United States or a non-citizen or
    alien unlawfully present in the United States;
• the SSI recipient was living in a restricted country;
• the SSI recipient was the insured person’s child;
• the SSI recipient met the definition of disabled;
• the SSI recipient was age 18 or older and became disabled before reaching age 22;
• the parent or child was granted a tax exemption as a member of a religious group
    opposed to insurance;
• the family was receiving the maximum payment allowed;
• the parent was receiving Disability Insurance benefits that were subject to offset
    because of worker’s compensation payments;
• the parent was entitled to Disability or Retirement Insurance benefits or was insured
    at the time of death;
• the railroad retirement board had jurisdiction over the survivor’s claim; or
• the parent had been deported or removed from the United States.




1
    Benefits may not be payable or may be payable only in part, if certain conditions exist.
                  Appendix E

Agency Comments
                                         SOCIAL SECURITY


MEMORANDUM


Date:      May 23, 2012                                                            Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Disabled Individuals Potentially Eligible as
           Auxiliary Child Beneficiaries” (A-13-10-10146)—INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Amy Thompson at (410) 966-0569.

           Attachment




                                                          E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“DISABLED INDIVIDUALS POTENTIALLY ELIGIBLE AS AUXILIARY CHILD
BENEFICIARIES” (A-13-10-10146)

Recommendation 1

Develop and implement a cost-effective strategy to assess the 14,434 recipients we identified to
correctly pay those recipients eligible for Old-Age, Survivors, and Disability Insurance (OASDI)
as auxiliary child beneficiaries and pay the OASDI underpayments due the recipients, as
appropriate.

Response

We agree.

Recommendation 2

Consider establishing an automated periodic review of Supplemental Security Income disabled
child recipients for potential entitlement to OASDI auxiliary child benefits.

Response

We agree.




                                              E-2
                                                                          Appendix F

OIG Contacts and Staff Acknowledgment
OIG Contacts

   Shirley E. Todd, Director, Evaluation Division

   Florence Wolford, Audit Manager

Acknowledgment

In addition to those named above:

   Melinda Lockhart, Senior Auditor

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-13-10-10146.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
